LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 13, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

WILLIAM ALAN PESNELL AND CHRISTOPHER HOLDER, THROUGH HIS
CURATOR, GARY HOLDER V. JILL SESSIONS, CLERK OF COURT, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on January 13,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondents:
RESPONDENT 26th JUDICIAL
DISTRICT COURT JUDGES:
Mr. David G. Sanders
P.O. Box 94005
Baton Rouge, Louisiana 70804
225-326-6705
sandersd@ag.louisiana.gov

RESPONDENT JENNIFER
BOLDEN:
Patrick R. Jackson
P.O. Box 70
Benton, LA 71006
318-752-3335
PJackson@bossierlawoffice.com
RESPONDENT JILL SESSIONS:
Glenn L. Langley
Julianna Parks
401 Market Street
Suite 1100
Shreveport, LA 71161
318-383-6422
glangley@langleyparks.com

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 13th day of January 2020.

